OIG Audit Report

United States Marshals Service Contract Proposal for Detention Facilities in Leavenworth, Kansas Under Solicitation MS-97-R-0009
Office of the Inspector General



Executive Summary


The Office of the Inspector General (OIG), Audit  Division has completed an audit of the contract proposal between the United  States Marshals Service (USMS) and Corrections Corporation of America (CCA) for  detention services in it Leavenworth, Kansas, facility.
Our review  of the contract proposal and interim letter contract revealed that the per diem  rates quoted by CCA are overstated.  In  1997, CAA billed the USMS for 109,855 inmate jail days at an average cost of  $76.60 per day, for a total of $8,415,334.   In addition, through July 31, 1998, CAA billed the USMS a total of  $5,161,010 for 64,650 inmate jail days at $79.83 per day plus an additional  $20,170 for other contractual services.   However, our audit of the proposed jail day rate revealed that CCA’s  allowable expenses support a rate of $49.13.   The amount used to compute this rate is exclusive of $1,944,280 which  account for management fees, indirect costs, and state income taxes that are  set aside pending further determination and negotiation by the USMS.  Consequently, we concluded that the USMS: 

overpaid CCA about $3,017,717 for detention  services in 1997;
overpaid  CCA about $1,889,720 under the letter contract, through July 31, 1998; and
could  realize savings of approximately $4,516,035 for the remainder of 1998 through  December 31, 1999, by using the audited inmate per diem rate.




 




Return to OIG Home Page